                                                                  '   \
                                     1

                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS


                                    CLOSEOUT MEMORANDUM

    Case Number: A03060039                                                      Page 1of 2

I
        In April 2003, we received an anonymous allegation that a Program Director (PD)l
        had allowed panel reviewers to participate in the evaluation of, discussion of, and
        voting on proposals from their home institutions, which was a conflict of interests    .
        ((201). We reviewed the panels the PD ran to determine which reviewers might be .
        conflicted with which proposals. We found one of the PD's panels2 in which two
        reviewers (reviewer13 and reviewer24) were not recused from discussions and voting
        on proposals from their home institutions.
        We spoke with the PD who said he had prepared a COI list, but he had not included
        reviewers who were from the same institutions as the PIS i n d co-PISbecause he
        was not aware COIs extended to everyone at the same institution; he thought the
        COI only applied department-wide. We discussed with him NSF's form 1230P and
        explained his incorrect interpretation of COIs.
        In addition to NSF Form 1230P, which the panelists were required to sign and
        return, the panelists were briefed on COIs by a different Program Director in the
        PD's division.5 Despite these two measures, reviewer1 and reviewer2 were not
        recused from the panel when proposals from their home institutions were discussed
        and voted upon.
        We wrote to the two reviewers seeking their explanations. Reviewer1 said she did
        not know the PI from her institution, but once she recognized he was from her
        institution she neither discussed nor voted on his proposal. Reviewer2 said he had
        taught ethics and therefore determined for himself that he did not have a COI.
        Thus, he did not recuse himself from discussion or from voting. He noted his vote
        did not make a difference though. Reviewer2 essentially acknowledged that rather
        than following NSF policy, he used his own definition of a COI, applied his
        definition to himself, and determined for himself his lobbying and voting positively


           l (footnote redacted).
             (footnote redacted).
           3 (footnote redacted).
           * (footnote redacted).
           5 (footnote redacted).
                                     NATIONAL SCIENCE FOUNDATION
                                      OFFICE OF INSPECTOR GENERAL
                                        OFFICE OF INVESTIGATIONS


                          CLOSEOUT MEMORANDUM


Case Number:A03060039                                            11        Page 2 of 2



    for a proposal from his own institution was not a COI.
    Since the panel minutes did not record individual votes, there is no way to disprove
    reviewerl's account, and the allegation against her is not sustainable. Since
    reviewer2 admitted he did not follow NSF's policy, we sent him a letter explaining
    why NSF has a COI policy and it was up to NSF interpret it, not him. We advised
    him to follow NSFs guidance the next time he reviews proposals for it. This case is
    closed.
